                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 109120071                                                                       Page 1 of 1



         OIG conducted an investigation of an awardee 1 to determine whether the awardee accurately reported
         award expenditures to NSF in quarterly financial reports and appropriately drew down NSF award
         funds. Upon receipt and review of the entity's financial records, we determined that the entity over
         reported actual expenditures 2 on two of its NSF awards 3 during certain reporting periods and
         inappropriately drew down funds on a reimbursement basis before they were expended.

         Because the awardee has since merged into a larger non-profit entity with adequate policies, and the
         larger non-profit entity's NSF awards did not appear to have the same reporting or draw down
         problems, OIG notified the new entity of the issues identified and requested that it employ greater
         financial controls over entities it acquires in the future to ensure proper reporting to NSF in the
         future.

         No further investigative activity is warranted.

         This investigation is closed.




NSF OIG Form 2 (11102)
